No. 21-

 

IN THE
Supreme Court of the United States

SAFEHOUSE,
Petitioner,

v.

U.S. DEPARTMENT OF JUSTICE, ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,427 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 23, 2021.

wf

Colin Casdy/Hogan
Wilson-Epes Printing Co., Inc.
